             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                       OFFICE OF INSPECTOR GENERAL
                            MID-ATLANTIC DIVISION
                                1650 Arch Street
                      Philadelphia, Pennsylvania 19103-2029
                                  (215)814-5800


                                 August 31, 2000

MEMORANDUM

SUBJECT: Memorandum of Review on EPA’s Management
         of the Abex Superfund Site
         Report Number 2000-S-00006


FROM:       Carl A. Jannetti
            Divisional Inspector General for Audit
             Mid-Atlantic Division (3AI00)

TO:         Bradley M. Campbell
            Region III Administrator (3RA00)


PURPOSE

Senator Charles Robb requested we perform a review of Region III’s management of
the Abex Superfund site as it pertained to the residents of nearby Washington Park
Housing (WPH) apartments. His letter primarily asked us to address the following
topics:

      ‚ EPA’s sampling of the soil in the area of WPH apartments,
      ‚ Testing inside of the heating ducts in the WPH apartments,

      ‚ Blood lead tests offered by EPA throughout the cleanup,

      ‚ Consideration of temporary and/or permanent relocation of WPH
         residents, and

      ‚ Whether EPA conducted a poll of WPH residents.

SCOPE AND METHODOLOGY

This review was conducted in response to Senator Robb’s letter asking specific
questions related to the Abex Superfund site. In order to determine whether EPA’s
decisions and actions were reasonable pertaining to the specific issues noted above,
we interviewed numerous EPA Region III officials, as well as an official from the
Department of Justice. We also conducted a review of Region III’s Abex Superfund
site files and received technical assistance from our Engineering and Science Staff.
On March 15, 2000, we met with Region III officials to discuss Senator Robb’s
request. In addition, on April 3, 2000, we met with Senator Robb’s staff to discuss
agreed upon procedures for addressing their concerns. The agreed upon procedures
are substantially less in scope than an audit made in accordance with generally
accepted auditing standards. As a result, this report was prepared in accordance
with Generally Accepted Government Auditing Standards Section 2.10.
Throughout our review we maintained continuous communication with Senator
Robb’s staff and Region III personnel regarding the contents and format of our
response. The fieldwork was started on March 15, 2000 and completed on June 29,
2000.

We issued a draft memorandum to the Regional Administrator on July 13, 2000.
EPA submitted its response to us on August 22, 2000. Based on this response, we
made minor modifications to our report. After our recommendation on page 6, we
included a summary of EPA’s response to the draft report, as well as our evaluation
of the Region’s response. A complete copy of the response is included in Appendix 1.
Based on discussions with Region III officials, we agreed that an exit meeting was
not necessary because the Region concurred with the issues and recommendation in
the report.

ACTION REQUIRED

In accordance with EPA 2750, you are required to provide our office with a written
response within 90 days of the date of this memorandum. When you provide your
written response, please include a copy of Region III’s memorandum informing
others of its experience with testing lead in heating ducts.

GENERAL BACKGROUND

Once a site containing hazardous substances is identified, a preliminary
assessment (PA) is conducted to determine if the site poses a potential threat to
human health. If the site poses a serious imminent threat, EPA will conduct an
emergency “removal” action. However, if the PA shows the contamination problem
is not imminent, EPA will conduct a site inspection (SI), which involves sampling to
further determine the existence of a threat from the contamination. Based on the
information obtained from the PA and SI, EPA uses the Hazard Ranking System to
evaluate the potential risks to public health and the environment. The most
serious sites are included on the National Priorities List (NPL) and qualify for long-
term cleanups with Superfund money.

                                          2                 Report Number 2000-S-00006
After placing a site on the NPL, EPA will proceed with a remedial response that has
two main phases: 1) the remedial investigation and the feasibility study (RI/FS),
and 2) the remedial design/remedial action (RD/RA). During the RI/FS, conditions
at the site are studied, problem(s) identified, and alternative cleanup methods
evaluated. The RI/FS is an interactive process that may take two or more years to
complete, and may be performed by the potentially responsible party (PRP) or EPA.
During the RI/FS phase, the preferred remedy is identified and finalized in a
Record of Decision (ROD). The remedial design phase, which generally takes one
year or longer to complete, specifically defines how the cleanup will occur and what
will be done. The remedial action then implements the design and the cleanup is
undertaken. If at anytime during this process, an imminent threat is discovered, a
removal action will be performed. After the remedial action is completed,
continuing site operation and maintenance (O&M) activities are conducted to
maintain the effectiveness of the remedy, and to ensure that no new threat to
human health or the environment arises.

RESULTS OF REVIEW

The following are the results of our review related to the topics raised in Senator
Robb’s letter.

1. Additional Soil Samples

EPA officials stated that initial sampling was performed within a 700-foot radius of
the Abex Foundry. This somewhat arbitrary boundary was established by the
Commonwealth of Virginia. After assuming responsibility for this site in 1992,
EPA decided to conduct more extensive soil sampling both in and outside the 700-
foot radius. Although more contamination was found, EPA officials explained that
on average, the soil contamination did not cause an immediate threat to residents
and could be addressed during the remedial action. The results of the additional
sampling were provided to the City of Portsmouth and the WPH residents.

The remedial design work plan is a blueprint for implementing the cleanup method
selected and the remedial design is a more specific description of how the cleanup
will proceed. As the responsible party, Abex had a contractor initially draft the
remedial design work plan, which did not include the additional sample data.
Region III finalized the remedial draft work plan without realizing that not all
sample data was included in the cleanup plan.

EPA officials stated there was an unusual amount of turnover during the design
phase and that three remedial project managers (RPMs) were assigned to this site
in a 14-month period. They added that this turnover contributed to the
misunderstanding of what area was required to be cleaned. For example, the RPM
who finalized the remedial design was not involved in the early phases of that



                                          3                  Report Number 2000-S-00006
 effort, which could have caused the sampling data to be omitted. However, in this
case, we found evidence that the RPM was aware of the additional sample data, but
inadvertently approved the final plan without including the data.

Shortly after the remedial design for the soil excavation was finalized, another
RPM assumed responsibility for the Abex site. His primary task was to oversee the
cleanup and the temporary relocation of the WPH residents. Realizing that the
residents had already been temporarily relocated once to demolish the Abex
foundry, the RPM wanted to be certain that all of WPH would be cleaned during
this remedial action. While reviewing the site files, he found portions of WPH that
had been found contaminated, but were not included in the planned remedial
action. This type of omission could jeopardize human health and the environment.
However, in the case of Abex, EPA officials emphasized there was no adverse effect.
They said additional cleanup work would not have been conducted any sooner
because the average lead levels in the soil were not high enough to justify
immediate action. Therefore, there was no adverse impact on the environment or
public health.

EPA officials acknowledged that the 1993 sampling data, from samples taken in
and outside of the 700-foot radius, should have been included in the remedial
design work plan. However, residents were tested throughout the project period,
and blood screenings indicated there was no imminent health threat. In addition,
the RPM identified the data prior to completing work at the site and as a result,
avoided the need for relocating residents another time and unnecessarily extending
the project period.

Although there was confusion over what areas of WPH needed to be cleaned, we
agree there was no adverse environmental impact and public health was protected.
However, we believe that because RPM turnover is inherent to the Superfund
program, there is potential for similar occurrences at other EPA remedial cleanups.
As a result, we plan to conduct a review of the RPM turnover issue to identify
methods that EPA can implement to ensure turnover does not negatively impact
future sites. Preliminary discussions with Region III personnel indicated that this
is a worthwhile initiative and they have agreed to work collaboratively with our
office on this review.

2. Heating Duct Cleanup

As part of the remedial cleanup, EPA collected wipe samples from the interior and
exterior of the WPH apartments before and after the excavation. This sampling
included the areas around the heating vents, which did not show high levels of lead
contamination. WPH residents suggested to the RPM that some residents may
have cleaned their floors before being temporarily relocated, which may have biased
the results of the sampling. In addition, some of the residents were not satisfied



                                         4                 Report Number 2000-S-00006
with EPA testing outside the vents and wanted the inside of the heating ducts also
tested.

According to the EPA toxicologist and the RPM, the reason the inside of the vents
was not initially tested was because the residents did not have access to this area
and it was not “living space.” Also, the wipe sampling initially conducted did not
indicate elevated levels of lead. Moreover, EPA was concerned that the source of
lead in the duct work could not be identified. Subsequently, EPA agreed to test the
inside of the ducts because the wipe samples could have been biased and the WPH
residents were threatening to not return to their apartments. The concerns of the
WPH citizens were well founded because sampling results indicated high levels of
lead contamination in the large volumes of dust found in the ducts.

EPA’s response to our draft report provided additional information supporting their
decision to not test the duct work. In the early 1990's, the U.S. Housing and Urban
Development (HUD) performed a lead paint abatement in the WPH apartments.
HUD’s sampling data showed the units were clean after the lead paint abatement.
Also, EPA officials said they conducted a tremendous amount of wipe sampling data
between 1997 and 1999. The results showed only a very small percentage of the
units had any lead dust problems and these were almost always attributable to
tracking contaminated soil in from outside.

Because the RPM had little knowledge about cleaning lead in duct work, he held
numerous discussions with EPA officials such as his supervisor, on-scene
coordinators involved with lead contaminated sites, and the EPA public relations
specialist. The RPM also contacted EPA’s national liaison for lead to determine
whether other EPA regions had experience with lead in duct work. Additionally,
the RPM researched the internet for companies that specialized in cleaning ducts
and contacted the Centers for Disease Control representative to the Philadelphia
lead program. The research found no prior history of cleaning lead in heating
ducts. Ultimately, EPA contracted with the US Army Corps of Engineers to conduct
the cleanup.

Because samples detected high levels of contamination, we believe EPA should have
tested the ducts prior to the residents’ request. However, we could find no proof
that EPA was aware of a dangerous situation that Agency personnel wished to hide.
We came to this conclusion because we confirmed that EPA personnel did not
routinely consider performing lead abatement cleanups inside ducts. What does
appear evident is that because of what happened at the Abex site, Agency personnel
have learned more about lead abatement in duct work and have said that it will be
considered in future cleanups.




                                         5                 Report Number 2000-S-00006
RECOMMENDATION:

We recommend Region III inform other EPA Regions about its experience testing
inside ducts for lead contaminants. This could be accomplished through EPA’s
national lead liaison.

EPA Response

EPA agreed with our recommendation and the RPM is going to issue a
memorandum to Region III RPMs and OSCs describing his experience with lead in
the duct work of the WPH apartments. Region III also plans to forward the memo
to the coordinator of the Superfund Program’s National Lead Workgroup,
requesting that he inform each of the Regions about this issue. The milestone date
for the memorandum to be completed is September 30, 2000.

Region III responded that it looks forward to working with us in evaluating how to
better prevent changes in project managers from affecting the quality of the work
on Superfund projects.

OIG Evaluation

We agree that a widely circulated memorandum will raise EPA awareness of
Region III’s experience with lead found in the duct work, and will help to ensure
that duct work is tested during future cleanups.

3. Blood Lead Studies

In 1992, EPA took over the cleanup project from the Commonwealth of Virginia for
the remedial action planned at Abex. One of the Region’s first actions was to have
the City of Portsmouth offer blood lead level screenings to residents living near the
Abex site. In addition to the 1992 screenings, EPA offered screenings in 1994 and
two more in 1999. Three were performed by the Portsmouth Department of Public
Health. Because one of the residents requested a different testing venue, the
Children’s Hospital of King’s Daughters in Norfolk conducted the fourth screening.
EPA does not have specific policies establishing numerical thresholds for how much
lead contamination in soil necessitates blood lead testing. Region III officials said
each Superfund site is handled on a case by case basis with the health and safety of
residents as a priority. Lacking its own numerical thresholds, EPA used guidance
established by the Centers for Disease Control (CDC). Below is a table found in the
CDC’s “Screening Young Children for Lead Poisoning: Guidance for State and
Local Public Health Officials” (November 1997) that provides suggested actions
based on the blood lead level detected:




                                          6                 Report Number 2000-S-00006
      • When less than 10 micrograms per deciliter (µg/dL), reassess or rescreen
        in 1 year. No additional action necessary unless exposure sources change.

      • When between 10-14 µg/dL are found, provide family lead education and
        follow-up testing. Also, refer to social services if necessary.

      • When between 15-19 µg/dL are found, same as above. If another test, at
        least 3 months later, shows lead in this range or worse, proceed according
        to actions for the next level.

      • When between 20-44 µg/dL provide the following: coordination of care
        (case management); clinical management; environmental investigation
        and lead hazard control.

      • When between 45-69 µg/dL, same as above except action is required
        within 48 hours.

      • When $70 µg/dL hospitalize child and begin medical treatment along with
        the above actions immediately.

Adverse health effects resulting from lead exposure include lowering a child’s
intelligence quotient (IQ), hearing problems, speech and language handicaps, and a
short attention span. These health effects have been associated with blood lead
levels as low as 10 µg/dL. According to Agency personnel, lead exposure is common
in urban areas and the negative impacts can be reduced through education on
cleanliness and nutrition.

CDC’s National Health and Nutrition Examination Surveys (NHANES) have been
the primary source for monitoring blood lead levels in the United States. To
determine the significance of lead contamination, we compared the national
average for blood lead levels to the blood lead levels found in the WPH residents.

For children ages 1-5 years old, Phase 2 of the NHANES III survey results showed
that 4.4 percent of the children had blood lead levels equal to or more than 10
µg/dL. In July and August 1992, 542 people living in or around WPH apartments
were tested for lead. The results indicated that 21 children, or 4 percent had
elevated blood lead levels equal to or more than 10 µg/dL. Eighteen of the 21
children were in the range of 10-14 µg/dL and the 3 remaining children were in the
15-19 µg/dL range. Elevated blood lead levels at WPH were less than the national
average.

The NHANES III survey also reported that blood lead levels equal to or more than
10 µg/dL for the U.S. population aged 1 year and older was 2.2 percent. The
December 1999 screening conducted by the Children’s Hospital of King’s Daughters



                                         7                Report Number 2000-S-00006
 in Norfolk revealed that of the 415 people tested, 5 people or 1 percent had
elevated blood lead levels. Two people were in the range of 10-14 µg/dL and three
were in the 15-19 µg/dL range. Again, WPH blood lead levels were below the
national average.

According to EPA officials, the blood lead level results for all of the testings did not
detect exceptionally high lead levels. As a result, the blood screenings for the Abex
site did not support soil excavation through an emergency removal or the
permanent relocation of residents. After comparing the screening results at WPH
to CDC data, we believe EPA took reasonable measures to determine the effect of
the Abex lead contamination on the WPH residents.

4. Temporary and/or Permanent Relocation

Temporary relocation is required when a health assessment determines that a
cleanup will expose citizens to contaminants that present a significant risk to
human health. The Region’s remedial design included a detailed plan for
temporarily relocating residents of WPH while the cleanup was performed.
Permanent relocation is considered an option only when a site cannot be returned
to a safe level to protect human health, or temporary relocation would exceed one
year. In the WPH case, EPA believed they could clean the soil and return the site
to a safe level.

EPA officials emphasized that the contamination at this site was not difficult to
clean, however, it was made more complicated by the ongoing litigation and the
temporary relocation of the residents. For those residents who did not believe that
WPH was safe for them or their families, the 1994 Record of Decision stated that
Portsmouth Redevelopment Housing Authority (PRHA) offered residents relocation
to other public housing developments in the Portsmouth area.

5. EPA Polls

Included in Senator Robb’s request was concern that EPA conducted a poll that
contained leading questions trying to persuade the WPH residents to say they did
not want permanent relocation. However, according to Region III officials, they did
not conduct a poll. Also, because EPA concluded that the Abex site could be
restored to safe living conditions, permanent relocation was not an issue.

An Abex contractor conducted a survey of the WPH residents that included
questions about whether the residents liked living in WPH apartments. This
survey was not directed or requested by Region III. It was intended to generate
resident feedback regarding both the overall project and all aspects of the
remediation process, including the site excavation, restoration work and temporary
relocation. The Abex contractor was also interested in learning the opinions and



                                           8                  Report Number 2000-S-00006
 perceptions of WPH residents toward EPA, Abex’s contractors, and the PRHA. No
final report was issued and the results were not shared with EPA. Information
obtained regarding quality of life was to be provided to PRHA, however, EPA
officials did not know if the results were forwarded to PRHA. Our review of the
survey indicated that the questions appeared to be presented fairly and did not
include leading questions related to relocation issues.

When EPA received hesitation from some of the WPH residents about the 1997
temporary relocation, EPA hired a third party from the Department of Justice
(DOJ) to serve as a mediator between residents, EPA, and the PRHA. Some of the
residents were reluctant to temporarily relocate because they did not trust EPA and
PRHA. According to the DOJ mediator, this was prompted by one resident alleging
that WPH residents would not be able to return to their homes after being
temporarily relocated. Because the mediator worked directly with the residents,
she received anecdotal information about how the residents felt about WPH
apartments. However, her role was to improve communications between residents,
EPA, and PRHA. In addition, the DOJ mediator advised EPA on how to present
technical issues in a nontechnical manner when communicating with the residents.
In conclusion, EPA did not conduct a survey at Abex, and the survey conducted by
the Abex contractor did not include what we considered to be leading questions.




                                         9                Report Number 2000-S-00006
[This page was intentionally left blank.]




                                      Report Number 2000-S-00006
   APPENDIX I

AGENCY RESPONSE




                  Report Number 2000-S-00006
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION III
                                       1650 Arch Street
                            Philadelphia, Pennsylvania 19103-2029

                                          August 22, 2000

SUBJECT:      Response to the Office of the Inspector General's Draft
              Memorandum of Review on EPA's Management of the
              Abex Superfund Site (dated July 13, 2000), Assignment
              Number 2000-000860

FROM:         Bradley M. Campbell
              Regional Administrator (3RAOO)

TO:           Carl A. Jannetti, Divisional Inspector General for Audit
              Mid-Atlantic Division (3AI00)



       This memorandum is written in response to your "Draft Memorandum of Review on
EPA's Management of the Abex Superfund Site (Assignment Number 2000-000860), dated July
13, 2000. I appreciate the opportunity to review your findings and to discuss the Agency's
response to your recommendation. In your memo, you requested that I address the factual
accuracy of the draft report, state my concurrence or nonconcurrence with the recommendation,
and discuss plans and milestone dates for taking any necessary corrective action. I will address
each of the areas below, as well as provide several other comments.

Factual Accuracy

1.      On page 4, paragraph 2, the report states "that two prior EPA removals resulted in
        temporarily relocating some of the residents." Some residents had been temporarily
        relocated prior to the 1999 soil excavation work, but this occurred only one other time
        when the foundry was demolished as part of the remedial, not removal, action.

2.      On page 6, the report discusses responses that should be taken to address various levels of
        blood lead. It is EPA's understanding that the Center for Disease Control (CDC) would
        not characterize the 10-14 µg/dl blood lead level range as "borderline." According to
        CDC, "Blood lead levels as low as 10 micrograms/deciliter (ug/dL) are associated with
        harmful effects on children's learning and behavior" (CDC's web page -
        http://www.cdc.gov/nceh/lead/guide/1997/docs/factlead.htm). CDC's manual entitled
        "Screening Young Children for Lead Poisoning: Guidance for State and Local Public
        Health Officials" (11/97) states that family lead poisoning prevention education should be
        provided when a child's blood lead level is in the 10-14 µg/dl range.

3.      On pages 6-7, data is provided regarding the average blood lead levels in the United States
        and the percentage of American children that exceed the CDC's 10 µg/dl level of concern.
        We were unable to substantiate the average numbers in the report. The Agency for Toxic

                             Customer Service Hotline: 1-800-438-2474
       Substances and Disease Registry (ATSDR) has provided us with the following information
       (taken from several documents that reference data from Phase 2 of the Third National
       Health and Nutrition Examination Survey [NHANES III] from 1991-1994 [NHANES III
       is a national representational survey of the civilian, noninstitutionalized U.S. population]):

       a. The overall mean blood lead level for the U.S. population aged 1 year and older
          (including adults) was 2.3 µg/dI. 2.2% of this population had blood lead levels equal
          to or over 10 µg/dl, the level of health concern for children.

       b. Among U.S. children aged 1-5 years, the mean blood lead level was 2.7 µg/dl. 4.4% of
          this population had elevated (i.e., above 10 µg/dl) blood lead levels.

Concurrence/Nonconcurrence

        I concur with your recommendation to inform other Regions about our experience testing
the inside of heating ducts for lead contaminants.

Plans and Milestone Dates

        In implementing your recommendation, I have asked Randy Sturgeon, EPA's Remedial
Project Manager for the Abex Site, to issue a memo to the other Region III RPMs and OSCs
describing his experience with the lead in the duct work at the Washington Park Housing
Complex and to forward his memo to Shahid Mahmud, the coordinator of the Superfund
Program's National Lead Workgroup, requesting that he inform each of the Regions about this
issue. I have requested that this memo be issued by September 30, 2000.

Other Comments

1.     On page 3, reference is made to additional sampling data that was "inadvertently omitted
       from the remedial design work plan and the final remedial design." While this is true, it
       was the potentially responsible parties that originally omitted the data from the remedial
       design work plan. Had the first RPM remained the project manager, he would likely have
       caught this oversight early in the remedial design.

2.     On pages 3 and 4, reference is made to the third RPM's involvement with the additional
       sampling data. Although it is correct to state that some of this additional data was
       reviewed by the third RPM and yet was not included in the final remedial design which
       was approved during his tenure (probably due to his overall short time in managing this
       project), his review of this and other data led to EPA's 2020 Chestnut Street removal
       action adjacent to the Abex Site which involved cleaning up approximately 40 residential
       yards.

3.     On page 5, the report concludes that "because samples detected high levels of
       contamination we believe EPA should have tested the ducts prior to the residents request."
       This, however, is a case of 20-20 hindsight. Prior to the time of our testing, a large
       amount of information indicated that there was not widespread lead contamination in the
       apartments and therefore no need to continue to look for sources of lead. Additionally,
       EPA had U.S. Housing and Urban Development sampling data which showed the units
       were clean after the lead paint abatement which occurred in the early 1990's. EPA also
       had a tremendous amount of wipe sampling data from 1997 and 1999 which showed only
       a very small percentage of the units had any lead dust problems and these were almost
       always easily attributable to tracking contaminated soil in from outside. In other words,
       there was no evidence that the ducts were a source of lead in the units. Our initial concern
       was based not on dust regularly blowing out, but on maintenance activities possibly
       knocking the dust loose. The amount of dust found in the ducts and its lead content,
       however, lead us to conclude that your recommendation is nonetheless a prudent one.

4.     Lastly, EPA looks forward to working with you to evaluate how to better prevent changes
       in project managers from affecting the quality of the work on Superfund projects.

        Again, I thank you for evaluating our performance at the Abex Superfund Site and being
an integral part in helping the Agency protect human health and the environment. If you have any
questions regarding this matter, do not hesitate to contact Peter Ludzia at 215-814-3224 or Peter
Schaul at 215-814-3183.

cc:    Abraham Ferdas
       Jim Newsom
       Robert Reed
       Randy Sturgeon
       Tom Voltaggio
                                DISTRIBUTION

Headquarters

Office of Inspector General - Headquarters (2410)
Assistant Administrator for the Office of Solid Waste
and Emergency Response (5101)
Audit Followup Coordinator, Office of Solid Waste
and Emergency Response (5103)
Agency Audit Followup Coordinator (3304)
Agency Audit Followup Official (3101)
Associate Administrator for Congressional and
Intergovernmental Relations (1301)
Associate Administrator for Communications, Education
and Media Relations (1701)
Director, Office of Regional Operations (1108)
Headquarters Library (3404)

Regional Office

Assistant Regional Administrator, Office of Policy and Management (3PM00)
Director, Office of Hazardous Site Cleanup Division (3HS00)
Director, Office of Communications and Government Relations,
Region III (3CG00)
Chief, Grants and Audit Management Branch (3PM70)
Region III Library (3PM50)

Congressional Office

Senator Charles S. Robb’s Legislative Assistant for EPA
Senator Charles S. Robb’s Legislative Assistant for HUD




                                                          Report Number 2000-S-00006
